No.

3fn tlje Supreme Court ot tfje QEnttetJ ££>tatesf
Susan Chen.
Petitioner
v.
Kate Halamay e£ al.

Respondents

CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33.1 (h), I certify that the PETITION FOR
A WRIT OF CERTIORARI in the above-entitled case complies with the typeface
requirement of Supreme Court Rule 33.1 (b), being prepared in Century Schoolbook
12 point for the text and 10 point for the footnote, and the this brief contains 7500
words, excluding the parts of the documents that are exempted by the Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the forgoing is true and correct.
Executed on this 4th day of May, 2021.
Respectfully submitted,
/s/ Susan Chen
Susan Chen
PO BOX 134, Redmond, WA 98073
Tel: (323)902-7038

